          Office of Inspector General
Corporation for National and Community Service

                    Semiannual Report to Congress
                             for the period
                   April 1,2002 - September 30,2002

                                    Fiscal Year 2002
                                 Semiannual Report No. 2




Pursuant to the Inspector General Act of 1978, as amended, this report describes activities and
accomplishments for the second half of the fiscal year. Section 5 of the Act requires that the
Corporation's Chief Executive Officer submit this report to Congress and the Corporation's
Board of Directors within thirty days of its receipt.
                                    TABLE OF CONTENTS
EXECUTIVE SUMMARY ..................................................................................................................... i

                                                                                                                                             ...
INSPECTOR GENERAL ACT REPORTING REQUIREMENTS .....................................................                                          111


AUDIT SECTION

     FINANCIAL MANAGEMENT..................................................................................................... 1
     GRANT MANAGEMENT AND OVERSIGHT ............................................................................. 2
     INFORMATION SYSTEMS ........................................................................................................... 6
     AUDIT RESOLUTION ................................................................................................................... 7
     AUDIT REPORTS ........................................................................................................................... 9

INVESTIGATIONS SECTION............................................................................................................ 11

      SUMMARY OF INVESTIGATIONS ........................................................................................... 13

REVIEW OF LEGISLATION AND REGULATIONS ....................................................................... 14

TABLES

      TABLE I               INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS .............. 15
      TABLE I1              INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
                            THAT FUNDS BE PUT TO BETTER USE ....................................................... 16
      TABLE I11             SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT
                            DECISIONS ........................................................................................................ 17
      TABLE IV              REPORTS DESCRIBED IN PRIOR SEMIANNUAL REPORTS
                            WITHOUT FINAL ACTION ............................................................................. 18


FISCAL YEAR 2002 PERFORMANCE INFORMATION

      MISSION STATEMENT............................................................................................................... 19
      STRATEGIC GOALS ................................................................................................................... 1 9
      QUANTITATIVE AUDIT PERFORMANCE MEASURES ........................................................ 20
      INVESTIGATIONS PERFORMANCE INFORMATION ........................................................... 22
      SUMMARY OF OIG OBLIGATIONS AND EXPENDITURES ................................................. 24

                                            Office of Inspector General
                                  Corporation for National and Community Service
                                      1201 New York Avenue. NW., Suite 830
                                              Washington. DC 20525

                                          Telephone (202) 606.5000. extension 390
                                                 Facsimile (202) 565-2795
                                                  Hotline (800) 452-8210
                         EXECUTIVE SUMMARY

AUDIT SECTION                                           Information Systems
During this semiannual reporting period, the            In response to the requirements of the
Office of Inspector General (OIG) issued                Government Information Security Reform Act
eighteen (18) audit reports, for a total of             and implementation of that statute by the
twenty-eight (28) during the fiscal year.               Office of Management and Budget, OIG
Summaries of all audit reports issued fi-om             performed an independent evaluation of the
April 1 to September 30, 2002, are on pages 9           Corporation's information security program.
and 10.                                                 The assessment concluded that generally the
                                                        Corporation has policies and procedures in
Financial Management                                    place to safeguard the Corporation's critical
The audit of the Corporation's fiscal year 2001         information systems and databases.
financial statements resulted in an unqualified
opinion on the Statement of Financial Position          INVESTIGATIONS SECTION
as of September 30, 2001, and the related
                                                        During this reporting period OIG received and
Statements of Operations and Changes in Net
                                                        processed nineteen (19) Hotline contacts,
Position and Cash Flows for the year then
                                                        opened nineteen (19) investigative actions,
ended. On July 1, 2002, OIG issued the Fiscal
                                                        and completed twenty (20) investigative
Year 2001 management letter in conjunction
                                                        actions. Two (2) matters were referred to the
with the Corporation's Financial Statements
                                                        Department of Justice for prosecution or civil
Audit.      The letter made fifteen (15)
                                                        enforcement. Five (5) matters were referred to
recommendations for various improvements in
                                                        management of the Corporation for
financial management.
                                                        disciplinary action,       consideration for
                                                        debarment, or other corrective action.
Grant Management and Oversight
                                                        Highlights of investigations closed during this
The Office of Inspector General issued seven            period are presented on pages 11 through 13.
(7) State Commission audits during this period
(Washington, Kentucky, Michigan, Alaska,                Also during this reporting period OIG
New Jersey, New Hampshire, and Alabama).                received the last report of disciplinary action
These audits resulted in questioned costs of            taken by Corporation management against the
approximately $14.7 million (12.3 percent) of           initial group of employees that were identified
the $1 19.6 million in costs claimed. Results           by the OIG as abusing the government travel
of each State Commission audit are described            card program. As a result of the OIG travel
on pages 2 through 4.                                   card abuse investigations, Corporation
                                                        management dismissed five (5) employees,
The Office of Inspector General also issued             suspended eight (8) employees without pay,
eight (8) pre-audit surveys of grants awarded           demoted and suspended without pay one (1)
to other entities in its continuing initiative to       additional employee, gave written reprimands
gather basic information about, and assess risk         to eight (8) employees, counseled six (6)
related to grantee compliance with grant                employees, allowed two (2) employees to
provisions and oversight requirements. The              resign, allowed three (3) employees to retire,
results of these pre-audit surveys will be used         and allowed one (1) employee's term of
to develop future audit plans and projects.             appointment to expire. While the initial
                                                        employee travel card abuse investigations are




                                                    i                 FY02 Semiannual Report No. 2
                                                       EXECUTIVE SUMMARY
now closed, we are continuing to monitor the           (3) OIG presentations during this reporting
travel card program to ensure that controls put        period and the Assistant Inspector General for
in place by management are effective, that the         Investigations provided one (1).         One
controls are identifying travel card abusers,          presentation was to new Corporation
and that Corporation management is reviewing           employees and included the authority and
cases of identified abusers for appropriate            responsibilities of the OIG. The remaining
action.                                                three (3) presentations were to staff members
                                                       of the grantees and to Corporation Equal
                                                       Opportunity counselors regarding defining
OUTREACH EFFORTS
                                                       fraud, a discussion of the frequently
As part of our ongoing fraud prevention                encountered types of fraud, and how to
efforts, the Deputy Inspector General for              identify indicators of fraud.
Investigations and Operations provided three




                                                  ..                 FY02 Semiannual Report No. 2
                                                  zz
      INSPECTOR GENERAL ACT REPORTING
               REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act of
1978, as amended, to the specific pages in the report where they are addressed.


   Requirement                                                                            Page

 Section 4 (a)(2)     Review of legislation and regulations                                 14

 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the     Throughout
                      administration of Corporation programs and operations

 Section 5 (a)(2)     Recommendations with respect to significant problems, abuses,     Throughout
                      and deficiencies found in the administration of Corporation
                      programs and operations

 Section 5 (a)(3)     Prior significant recommendations on which corrective action
                      has not been completed

 Section 5 (a)(4)     Matters referred to prosecutorial authorities                         13

 Section 5 (a)(5)     Summary of instances where information was refused                None this
                                                                                         period

 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value of    1-4, 9, 10
                      questioned costs and recommendations that funds be put to
                      better use

 Section 5 (a)(7)     Summary of significant reports                                    Throughout

 Section 5 (a)@)      Statistical table showing number of reports and dollar value of       15
                      questioned costs

 Section 5 (a)(9)     Statistical table showing number of reports and dollar value of
                      recommendations that funds be put to better use

 Section 5 (a)(10)    Summary of each audit issued before this reporting period for
                      which no management decision was made by end of reporting
                      period

 Section 5 (a)(l 1)   Significant revised management decisions                           None this
                                                                                          period

 Section 5 (a)(12)    Significant management decisions with which the Inspector          None this
                      General disagrees                                                   period




                                                  iii                 FY02 Semiannual Report No. 2
                                    AUDIT SECTION
The Office of Inspector General Audit Section is responsible for reviewing financial, administrative,
and programmatic aspects of the operations of the Corporation for National and Community Service
(the Corporation). It carries out these responsibilities by conducting the audit of the Corporation's
annual financial statements, assessing the Corporation's management controls, auditing Corporation
operations, and auditing individual grants, contracts, and cooperative agreements funded by the
Corporation. All OIG audit reports are referred to Corporation management for action or
information. A list of the reports issued by the Audit Section during this period can be found on
pages 9 and 10.


                                  FINANCIAL MANAGEMENT

Recommended Improvements to the Corporation's Internal Controls Fiscal Year 2001 -
Management Letter (OIG Audit Report Number 02-02)
The Government Corporation Control Act (31 U.S.C. 9101, et seq.) requires OIG to annually audit
the Corporation's financial statements. OIG contracted with KPMG LLP to audit the Corporation's
fiscal year 2001 statements. This audit, conducted in accordance with government auditing standards,
resulted in an unqualified opinion on the Corporation's Statement of Financial Position as of
September 30, 2001, and the related Statements of Operations, Changes in Net Position, and Cash
Flows for the year then ended.

During their work, the auditors noted other matters involving the Corporation's internal controls that
were not considered material weaknesses or reportable conditions. These conditions were reported in
the management letter that was issued on July 1, 2002. The letter made fifteen (15)
recommendations' in five (5) subject areas (grants management, national service trust, human
resources, revenue fkom reimbursable agreements, and information technology).


1
    Recommended improvements to the Corporation's Internal Control:
    Grants Management - Oversight of OMB Circular A-133 reporting should be improved; oversight of grantee
    financial activity should be improved; grantee site visits should be improved; and the Corporation is not
    properly maintaining and utilizing the National Senior Service Corps (NSSC) Compliance Monitoring
    database.

    National Service Trust - The process of reviewing Web-Based Reporting System (WBRS) Reconciliation
    Reports should be strengthened; member end-of-term forms are not always approved timely; the
    Corporation's methodology for calculating the Service Award Liability estimate needs to be reviewed; and
    certain members inappropriately received service awards.

    Human Resources - Controls over payment of subsistence to VISTA members should be improved; VISTA
    member files are incomplete; and inaccurate information is entered into the VISTA Management
    SystemlSystem for Programs, Agreements, and National Service Participants (VMSISPAN) for VISTA
    members.
    Revenue from Reimbursable Agreements - Demand letters are not consistently sent on delinquent receivables;
    and the Corporation's methodology for aging receivables needs improvement.

    Information Technology - Recommendations for continued improvements in the electronic processing of
    financial transactions and a lack of proper access controls for WBRS.


                                                       1                    FY02 Semiannual Report No. 2
                                                                                     A UDITS
                    GRANT MANAGEMENT AND OVERSIGHT

The Corporation awards National and Community Service Act and Domestic Volunteer Service Act
grants to State and local governments, State Commissions, institutions of higher education, and other
not-for-profit organizations. Grantees are required, among other things, to expend funds only for
allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
financial compliance with the terms of the respective grant agreements. The Corporation is
responsible for ensuring that grantees comply with applicable laws and regulations related to the
administration of grant awards, including those related to Federal cash management requirements.

The Office of Inspector General Audit Section performs audits of the Corporation's oversight of
grantees and audits of specific grants to assess whether reported costs are allowable under Federal
regulations and whether grantees are complying with the terms and conditions of the awards. Our
reports on Corporation grants contain recommendations for correcting deficiencies identified in the
reports. Typically, the recommendations are for the grantees to reimburse questioned costs and to
establish and implement policies and procedures to prevent future instances of non-compliance and
improve internal controls. We also make recommendations for increased oversight by the
Corporation and improvements in the Corporation's grants management operations.

State Commission Audits
The Corporation, pursuant to the authority of the National and Community Service Act, as amended,
awards grants and cooperative agreements to State Commissions, nonprofit entities, tribes and
territories to assist in the creation of full- and part-time national and community service programs.
Currently, in accordance with the Act's requirements, the Corporation awards approximately two-
thirds of its ArneriCorps State and National funds to State Commissions. The State Commissions in
turn fund and are responsible for the oversight of subgrantees who execute the programs. Through
these subgrantees, AmeriCorps members perform service to meet educational, human, environmental,
and public safety needs.

Incurred Cost Audit of Corporationfor National and Community Service Grants Awarded to the
Washington Commissionfor National and Community Service (OIG Audit Report Number 02-09)
The Office of Inspector General retained Cotton and Company to audit Corporation grants to the
Washington State Commission from January 24, 1994, through September 30, 2000. The audit
identified questioned costs of $374,240, and unsupported costs of $1,068,575 out of the $43,123,075
in total claimed costs during the audit period. Of the $1,068,575 of unsupported costs, $980,765
represented unreconciled differences between the Federal Cash Transaction Reports and the
accounting system for three (3) 1994 grants. The report included eleven (1 1) recommendations to the
Commission to address weaknesses in the areas of compliance and internal controls including
recommendations to implement procedures to ensure that grantee cost allocation systems comply with
the AmeriCorps provisions, to facilitate timely submission of Financial Status Reports, to strengthen
the Commission's program monitoring procedures, and to retain source documentation for all journal
entries and other adjustments to the Commission's accounting records. The auditors concluded that
the Schedules of Award Costs presented fairly the costs claimed by the Commission, except for the
questioned and unsupported costs identified in the report.




                                                  2                  FY02 Semiannual Report No. 2
                                                                                        A UDITS
Incurred Cost Audit of Corporationfor National and Community Service Grants Awarded to the
Kentucky Commission on Community Volunteerism and Service (OIG Audit Report Number 02-
10)
The Office of Inspector General engaged KPMG LLP to audit Corporation grants to the Kentucky
Commission and its subgrantees for the period from January 28, 1994, through December 31, 2000,
for AmeriCorps, Learn and Serve, Administration, and Program Development and Training programs.
The audit identified total questioned costs of $5,587,955 (approximately 32.7 percent) out of claimed
costs of more than $17 million. A significant portion of the questioned costs ($2,724,186) was due to
the inability of subgrantees to provide supporting documentation, such as general ledgers and payroll
records, because their record retention policies did not comply with requirements in the AmeriCorps
provisions. The audit also identified a number of conditions relating to internal control over financial
reporting that are characterized as material weaknesses. First, the report concluded that the
Commission lacked adequate procedures for monitoring the financial activity and related compliance
with laws and regulations of its subgrantees, especially retention of verifiable records to support
reported program results. The second material weakness resulted from the absence of an effective
system at the Commission for ensuring subgrantee quality control of accounting and financial
reporting activities, and for assessing subgrantees' systems for internal controls to safeguard assets,
produce reliable financial reports, and comply with applicable Federal laws and regulations.

Because of the findings reported above, the scope of the audit work was not sufficient to enable the
auditors to express an opinion on the Commission's Schedules of Award Costs. This disclaimer
resulted from the Commission's lack of controls over financial reporting and compliance, the
significance of the questioned costs identified in relation to the total claimed costs, and the nature of
other report findings.

Incurred Cost Audit of Corporationfor National and Community Service Grants Awarded to the
Michigan Community Service Commission (OIG Audit Report Number 02-14)
The Office of Inspector General contracted with Cotton and Company to audit Corporation grants to
the Michigan Commission for ArneriCorps, Learn and Serve, Program Development and Training,
Promise Fellows, Disability, Make a Difference Day and Administrative costs from October 1, 1997,
through March 31, 2001. The Commission had claimed costs of $13,823,399. The auditors
questioned $55,817 for allowability and $253,025 for support, or approximately 2.2 percent of the
total claimed costs. Costs questioned for allowability represent amounts for which documentation
shows that recorded costs were expended in violation of regulations or specific award conditions or
costs that require interpretation by the Corporation regarding allowability. Costs questioned for
support require additional documentation to substantiate that they are allowable. The audit concluded
that the Schedules of Award Costs present fairly the costs claimed by the Commission, except for the
questioned and unsupported costs identified in the report.

Incurred Cost Audit of Corporationfor National and Community Service Grants Awarded to the
Alaska State Community Service Commission (OIG Audit Report Number 02-16)
The Office of Inspector General engaged L. G. Birnbaum and Company to audit Corporation grants to
the Alaska State Community Service Commission for AmeriCorps, Education Awards, Program
Development and Training, Make a Difference Day and Administrative costs from October 1, 1997,
through December 3 1, 2001. During this period, the Commission received approximately $4.2
million in funding authority from the Corporation and had approximately $3.9 million in claimed
costs. The auditors identified questioned costs of $127,818, an amount which represents
approximately three (3) percent of the claimed costs. The audit identified two (2) material
weaknesses relating to the reconciliation of amounts drawn down from the Department of Health and
Human Services with the Commission's financial records and the Commission's practice of reporting


                                                    3                   FY02 Semiannual Report No. 2
                                                                                      A UDITS
reimbursements and advances to AmeriCorps subrecipients as costs rather than reporting only costs
actually claimed by those subrecipients. The audit concluded that the Schedules of Award Costs
present fairly the costs claimed by the Commission, except for the questioned and unsupported costs
identified in the report.

Incurred Cost Audit of Corporation for National and Community Service Grants Awarded to the
New Jersey Commission on National and Community Service (OIG Audit Report Number 02-1 7)
The Office of Inspector General contracted with L. G. Birnbaum and Company to audit Corporation
grants to the New Jersey Commission on National and Community Service for AmeriCorps, Program
Development and Training, and Administration costs from January 1, 1994, through September 30,
2001. During this period, the Commission received approximately $39 million in funding authority
from the Corporation and had approximately $3 1 million in claimed costs. The auditors identified
questioned costs of $3.5 million, an amount representing approximately twelve (12) percent of the
claimed costs. The audit identified six (6) material weaknesses in the following areas: (1) the
Commission did not maintain an adequate financial system as required in various grant provisions;
(2) the Commission was unable to track matching requirements on Corporation grants to actual
tracking expenditures on a timely basis; (3) accounting records were missing significant amounts of
supporting source documentation; (4) inefficient cash management procedures resulted in excess cash
on hand at both the Commission and subgrantee levels; (5) reconciliations of Commission
drawdowns to actual costs were not performed on a timely basis; and (6) a second-tier subgrantee did
not receive full payment for all eligible expenses.

Incurred Cost Audit of Corporationfor National and Community Service Grants Awarded to the
New Hampshire Commission on National and Community Service (OIG Audit Report Number 02-
20)
The Office of Inspector General engaged KPMG LLP to audit Corporation grants to the New
Hampshire Commission and Volunteer NH! from September 1, 1997, through December 3 1, 200 1.
Since the Commission did not have an adequate system in place during the audit period to monitor its
subgrantees' financial and programmatic activities and some of the subgrantees failed to maintain
adequate accounting andlor program files, the scope of the audit work was insufficient to enable the
auditors to express an opinion on the accuracy of the Commission's Schedules of Award Costs. The
report explained that this disclaimer resulted from the lack of controls over financial reporting and
compliance, the significance of the questioned costs in relation to total claimed costs, and the nature
of other report findings. The report identified two (2) material weaknesses. The first concerned grant
and program management while the second related to financial management and reporting. The
report questioned $2,979,921, an amount that is approximately 57.1 percent of the claimed Federal
costs from 1997 through 2001. The inability of the Commission and its subgrantees to provide
supporting hard copy or electronic evidence concerning financial and other grant-related activities
during the audit field work generated a significant portion of the questioned costs.

Incurred Cost Audit of Corporationfor National and Community Service Grants Awarded to the
Alabama Governor's Office on National and Community Service (OIG Audit Report Number 02-
21)
The Office of Inspector General retained KPMG LLP to audit Corporation grants to the Alabama
Commission and its subgrantees for the period from January 1, 1997, through December 3 1,2001, for
AmeriCorps, Promise Fellows, Administration, and Program Development and Training programs.
The auditors identified questioned costs of $780,999 (approximately fourteen (14) percent) out of
claimed costs of $5,668,755. The audit report expressed a disclaimer of opinion on the Commission's
Schedules of Award Costs due to the lack of controls over financial reporting and compliance, as well
as the nature of the findings identified. The audit report also identified a number of matters which


                                                   4                   FY02 Semiannual Report No. 2
                                                                                       A UDITS
require corrective action relating to internal control over financial reporting. The report concluded
that adequate procedures for monitoring the financial activity and compliance with laws and
regulations of the Commission's subgrantees were not in place, and that the Commission did not have
an effective system for ensuring quality control of financial reporting.

Grants Awarded to Entities Other Than State Commissions
Pre-Audit Survey of the Retired Senior VolunteerProgram of Bergen County Inc., Grant Number
340A047-20 (OIG Audit Report Number 02-24)
In response to a management suggestion, OIG completed a pre-audit survey of the Retired Senior
Volunteer Program of Bergen County Inc., Grant Number 340A047-20. The scope of this pre-audit
survey was to assess the grant award and information contained in reports of site monitoring visits
available at the Corporation's headquarters and at the State office, as well as grantee compliance with
requirements for fiscal reporting. Based on the results of the survey work, OIG will proceed with an
incurred cost audit of this grant for calendar years 2000 and 2001.

Pre-Audit Survey of the Navajo Nation Foster Grandparent Program, Grant Number 339 W023-21
(OIG Audit Report Number 02-25)
In response to a management recommendation, OIG completed a pre-audit survey of the Navajo
Nation Foster Grandparent Program, Grant Number 339W023-21. The scope of this pre-audit survey
was to assess the grant award and information contained in reports of site monitoring visits available
at the Corporation's headquarters, and at the State office, as well as grantee compliance with
requirements for fiscal reporting. Based on the results of our survey work, OIG will proceed with an
incurred cost audit of the grant project fiom April 1,2001, through March 3 1,2002.

Pre-Audit Survey of the Points of Light Foundation, Grant Numbers OIPOLDC002 and
OlPOLDC003 (OIG Audit Report Number 02-26)
The Office of Inspector General completed a pre-audit survey of the Points of Light Foundation,
Grant Numbers 01POLDC002 and 01POLDC003. The scope of this pre-audit survey was to assess
the grant award information contained in reports of site monitoring visits, as well as the Corporation's
monitoring of the grantee's fiscal activity. Based on the results of our survey work, OIG will proceed
with a review of the audit work performed on internal control and compliance requirements in
accordance with OMB Circular A-133. OIG will also conduct a limited scope audit of the
Corporation's cooperative agreement with Points of Light Foundation, Grant Number 01POLDC002.

Pre-Audit Survey of the Parents as Teachers National Center, Inc., Grant Number OlSPHM0004
(OIG Audit Report Number 02-27)
The Office of Inspector General completed a pre-audit survey of the Parents as Teachers National
Center, Inc., Grant Number OlSPHM0004. The scope of this pre-audit survey was to assess the grant
award and information contained in reports of site monitoring visits, as well as the Corporation's
monitoring of the grantee's fiscal activity. Based on the results of our survey work, OIG will proceed
with an incurred cost audit for the period from April 1,2001, through June 30,2002.

Pre-Audit Survey of the Boys & Girls Clubs of America, Grant Number OlSPHGA002 (OIG Audit
Report Number 02-28)
The Office of Inspector General completed a pre-audit survey of the Boys & Girls Clubs of America,
Grant Number OlSPHGA002. The scope of this pre-audit survey was to assess the grant award and
information contained in reports of site monitoring visits, as well as the Corporation's monitoring of
the grantee's fiscal activity. Based on the results of our survey work, OIG will proceed with a review


                                                   5                   FY02 Semiannual Report No. 2
                                                                                        A UDITS
to compare costs submitted on the Financial Status Reports to the grantee's books and to evaluate
invoices that the grantee's subcontractor submitted.

Pre-Audit Survey of Communities in Schools, Inc., Grant Number OISPHVA003 (OIG Audit
Report Number 02-29)
The Office of Inspector General completed a pre-audit survey of Communities in Schools, Inc., Grant
Number 0 1SPHVA003. The scope of this pre-audit survey was to assess the use of grant funds, and
information contained in reports of site visits, as well as the Corporation's monitoring of the grantee's
fiscal activity. Based on the results of our survey work, OIG will proceed with an incurred cost audit
of the program from December 1,2000, through May 3 1,2002.

Pre-Audit Survey of America's Promise - The Alliance for Youth, Grant Number OlSPHVA001
(OIG Audit Report Number 02-30)
The Office of Inspector General completed a pre-audit survey of America's Promise - The Alliance
for Youth, Grant Number 0 1SPHVAOO1. The scope of this pre-audit survey was to assess the grant
award and information contained in reports of site monitoring visits, as well as the Corporation's
monitoring of the grantee's fiscal activity. Based on the results of our survey work, OIG will proceed
with an incurred cost audit of the grant project fi-om May 1,2001, through June 30,2002.

Pre-Audit Survey of Youth Life Foundation, Grant Number OlSPHDC005 (OIG Audit Report
Number 02-34)
The Office of Inspector General completed a pre-audit survey of Youth Life Foundation, Grant
Number 01SPHDC005. The scope of this pre-audit survey was to assess the use of grant funds and
information contained in reports of site monitoring visits, as well as the Corporation's monitoring of
the grantee's fiscal activity. Based on the results of our survey work, OIG will proceed with an
incurred cost audit of the grant for calendar year 2002.

                                 INFORMA TION SYSTEMS

OIG Letter Report Regarding Limited Network Security Assessment Testing (OIG Audit Report
Number 02-23)
The Office of Inspector General engaged KPMG LLP to conduct limited follow-up penetration
testing on selected services of the local area network at the Corporation's headquarters in an effort to
evaluate the results of testing conducted in the previous year. In past testing, KPMG evaluators
identified some indications that malicious software might be present on four (4) of the Corporation's
servers. The results of recent testing, conducted in April 2002, determined that the indicators that
were previously noted were "false-positives," and that additional security measures were not
necessary.

OIG Audit Report Regarding Corporationfor National and Community Service Evaluation of
Information Systems Pursuant to the Government Information Security Reform Act (OIG Audit
Report Number 02-35)
In response to the requirements of the Government Information Security Reform Act and the
implementation of that statute by the Office of Management and Budget, OIG engaged KPMG LLP
to conduct a performance audit of the Corporation's information security program for Momentum
(the Corporation's financial management system), SPAN (the System for Programs, Agreements, and
National Service Participants), and the Corporation's local and wide area networks. This year's
evaluation showed that the Corporation has made a few modest improvements in its security policies


                                                    6                   FY02 Semiannual Report No. 2
                                                                                     A UDITS
and procedures documentation, but has continued to place its primary emphasis on the operational
aspects of maintaining information security and implementing e-Grants, a major new application
system.


                                   A UDIT RESOLUTION

The Corporation's audit resolution process essentially consists of four (4) steps. After OIG issues an
audit report, the Corporation normally issues a Proposed Management Decision (PMD) responding to
the report's findings and recommendations generally not more than five (5) months after the final
report is issued. If OIG disagrees with management's proposed corrective actions, OIG submits
written comments within thirty (30) days of receiving the PMD. Not more than six (6) months after
an audit report is issued, the Corporation's audit resolution policy requires that the Chief Financial
Officer respond to the audit with a Management Decision (MD) describing approved corrective
actions and a timetable for implementing them. Final action on corrective measures must be
completed within twelve (12) months of the audit report's publication. Management subsequently
transmits a Notification of Final Action when all corrective measures have been completed and the
responsible management official has verified their accomplishment. At this point, management
considers the audit report to be closed.

During the period April to September 2002, Corporation and OIG representatives met periodically to
review open audit recommendations and determine appropriate actions to resolve recommendations,
particularly from audit reports that were issued more than two (2) years ago. As a result of these
meetings, audit resolution procedures have been streamlined and focused on current operations.

Management Decisions
During this semiannual reporting period, the Corporation notified OIG of two (2) proposed
management decisions. The Office of Inspector General concurred with both decisions.

    Audit Report 01-05, Audit of Corporationfor National and Community Service Grants Awarded
    to the Delaware Community Service Commission
    Audit Report 02-0 1, Audit of the Corporationfor National and Community Service 's Fiscal Year
    2001 Financial Statements

Notices of Final Action
The Office of Inspector General has received and concurred in the following Notices of Final
Actions. Management has reported that its corrective actions in response to these audits have been
completed. The audits are now closed.

    Audit Report 99-18, Audit of Corporationfor National and Community Sewice Contract No. 97-
    743-1001 with GS Tech, Inc.

    Audit Report 00-06, Pre-Audit Survey Report of the Delaware Community Service Commission

    Audit Report 01-21, Pre-Audit Survey of the Connecticut Commission on National and
    Community Service

    Audit Report 0 1-24, Pre-Audit Survey of the Massachusetts Service Alliance


                                                  7                   FY02 Semiannual Report No. 2
                                                                             A UDITS
Audit Report 01-34, Review of the Corporationfor National and Community Service 's Network
and Security Plan

Audit Report 01-35, Review of the Corporation for National and Community Service's System
Development Life Cycle Methodology

Audit Report 02-01, Audit of the Corporationfor National and Community Service's Fiscal Year
2001 Financial Statements

Audit Report 02-22, Assessment of Project Risks Related to the Corporation's Development of a
Grants Management System




                                            8                  FY02 Semiannual Report No. 2
                                                                                        A UDITS

                     AUDIT REPORTS ISSUED DURING THE PERIOD
                      APRIL 1,2002 THROUGH SEPTEMBER 30,2002

                                                                         Federal          Federal
Report   Issue                                                           Dollars          Dollars
Number   Date                       Report Name                         Questioned      Unsupported
                                                                              (Dollars in thousands)

                 Recommended Improvements to the Corporation's
                 Internal Controls Fiscal Year 2001 - Management
                 Letter

                 Incurred Cost Audit of Grants Awarded to the
                 Washington Commissionfor National and Community
                 Sewice

                 Incurred Cost Audit of Grants Awarded to the
                 Kentucky Commission on Community Volunteerism
                 and Service

                 Incurred Cost Audit of Grants Awarded to the
                 Michigan Community Service Commission

                 Incurred Cost Audit of Grants Awarded to the Alaska
                 State Community Service Commission

                 Incurred Cost Audit of Grants Awarded to the New
                 Jersey Commission on National and Community
                 Service

                 Incurred Cost Audit of Grants Awarded to the New
                 Hampshire Commission on National and Community
                 Sewice

                 Incurred Cost Audit of Grants Awarded to the
                 Alabama Governor's OfJice on National and
                 Community Service

                 OIG Letter Report Regarding Limited Network
                 Security Assessment Testing

                 Pre-Audit Survey of the RSVP of Bergen County Inc.,
                 Grant Number 340A047-20

                 Pre-Audit Survey of the Navajo Nation Foster
                 Grandparent Program, Grant Number 339W023-21

                 Pre-Audit Survey of the Points of Light Foundation,
                 Grant Numbers 01POLDC002 and 01POLDC003



                                             9                         FY02 Semiannual Report No. 2
                                                                                           A UDITS

                            AUDIT REPORTS ISSUED DURING THE PERIOD
                             APRIL 1,2002 THROUGH SEPTEMBER 30,2002

                                                                           Federal           Federal
Report      Issue                                                          Dollars           Dollars
Number      Date                        Report Name                       Questioned       Unsupported
                                                                                 (Dollars in thousands)

 02-27     6/26/02 Pre-Audit Survey of the Parents as Teachers National            NIA                    N/A
                      Center, Inc., Grant Number OISPHM0004

 02-28      7/3/02 Pre-Audit Survey of the Boys & Girls Clubs of
                     America, Grant Number OISPHGA002

 02-29     7/26/02 Pre-Audit Survey of Communities in Schools, Inc.,               N/A                    N/A
                      Grant Number OlSPHVA003

 02-30     7/26/02 Pre-Audit Survey of America's Promise - The Alliance            N/A                    N/A
                     for Youth, Grant Number OlSPHVAOOl

 02-34     7/26/02 Pre-Audit Survey of Youth Life Foundation, Grant                N/A                    N/A
                     Number OISPHDC005

 02-35     9/16/02 OIG Audit Report Regarding Corporationfor                       N/A                    N/A
                      National and Community Sewice Evaluation of
                      Information Systems Pursuant to the Government
                      Information Security Reform Act

                      TOTAL                                                  $   14.769            $   9.382

N/A means not applicable.




                                                 10                       FY02 Semiannual Report No. 2
                    INVESTIGATIONS SECTION
At the beginning of this reporting period there were eighteen (18) investigative actions. During this
reporting period nineteen (19) investigative actions were commenced and twenty (20) were closed.
Seventeen (17) investigative actions were pending at the end of the reporting period.


                HIGHLIGHTS OF INVESTIGATIONS CLOSED
                   DURING THIS REPORTING PERIOD

Fiscal Agent Embezzles $750,000 - Pleads Guilty - Incarceration and Restitution Ordered (OIG
Report of Investigation 01-023)
The Office of Inspector General completed an investigation worked jointly with the Federal Bureau
of Investigations (FBI), with the FBI as the lead agency. The investigation disclosed evidence that an
employee of a firm acting as the fiscal agent for several non-profit agencies, including a Corporation
RSVP grantee, embezzled over $750,000 from his company. An audit determined that $3,172.77 of
the stolen funds were RSVP funds paid to the grantee by the Corporation. Following a guilty plea in
Federal court, the fiscal agent's employee was sentenced to thirty (30) months confinement, thirty-six
(36) months probation, required to pay $756,698.50 in restitution and assessed $100 in court costs.

Prosecution Declined in Alleged Misapplication - Debarment Recommended (OIG Report of
Investigation 01-068)
The Office of Inspector General completed an investigation opened when a Corporation employee
reported that a Corporation grantee may have submitted false Financial Status Reports and may have
misapplied funds from a Corporation grant. The Office of Inspector General reviewed the grantee's
financial files and noted numerous discrepancies indicating the grantee may have misapplied Federal
funds and may have prepared and submitted false Financial Status Reports. The Office of Inspector
General interviewed the grantee's finance director and the grantee's program director and both
admitted using Federal funds for non-Federal expenses for a nine (9) month period. It appeared the
program director did not learn of the misapplication of Federal funds until after it was accomplished.
Approximately $190,000 may have been misapplied. The Corporation terminated the grant. The
U.S. Attorney's Office in Washington, DC, initially accepted this matter for prosecution, then
declined to pursue it locally, suggesting it be referred to the U.S. Attorney's Office in Atlanta,
Georgia. The U.S. Attorney's office in Atlanta declined this matter for criminal and civil prosecution
because there was no indication that anyone personally benefited from the misapplication of Federal
funds. The Office of Inspector General referred this matter to Corporation management and
recommended they consider debarring the grantee's finance director from participating in Federal
procurement and non-procurement programs for a period of time. The proposal to debar is pending.

Inappropriate Service Hours to be Deducted (OIG Report of Investigation 01-071)
The Office of Inspector General completed an investigation opened when a State Commission
reported that it appeared that the management of a Commission-funded ArneriCorps program allowed
its AmeriCorps members to falsify their time sheets, recording hours for which no service was
performed, and allowed members to perform clerical and administrative tasks. Our investigation
found no evidence that the AmeriCorps members falsified their time sheets; however, the subgrantee
allowed members to earn service hours for lunch, for performing administrative tasks, and for
participating in fundraising activities. Material obtained during this investigation was provided to the



                                                   I1                  FY02 Semiannual Report No. 2
                                                                INVESTIGA TIONS
State Commission and the Corporation program officer for their use in adjusting member service
hours as necessary.

Corporation Employee Admits Preparing and Submitting Fraudulent Time Sheets (OIG Report of
Investigation 02-023)
An investigation opened when OIG received information indicating a Corporation employee might
have submitted fraudulent time sheets was also completed. Evidence was found indicating that the
employee prepared two (2) time sheets for the pay period for March 10-23, 2002. The employee
submitted one (1) time sheet via facsimile to the Corporation for calculation of payment. This time
sheet listed eighty (80) regular hours and twentythree (23) hours of compensatory time. The
employee's supervisor's signature on this time sheet was forged. When questions were asked that
caused the employee to believe the first time sheet was being questioned, the employee faxed a
second time sheet to the Corporation. This second time sheet indicated that the employee worked
forty-six (46) regular hours and used thirty-four (34) hours of unpaid leave, which was an accurate
accounting of the employee's hours. A second supervisor's signature was forged on the second time
sheet. During an interview conducted by OIG, the employee admitted forging the signatures and
submitting the fraudulent time sheets for payment. The U.S. Attorney's Office in Washington, DC,
reviewed this matter for prosecution and entered into a pretrial diversion agreement with the
employee, agreeing to forego prosecution if the employee met the conditions of the agreement, which
included performing forty (40) hours of community service. The Office of Inspector General
provided management the information obtained during this investigation for their use in determining
if administrative action should be taken and management terminated the employee.

Corporation Employee Misuses Government Travel Card (OIG Report of Investigation (02-011)
The Office of Inspector General completed an investigation opened when Corporation management
reported that a Corporation employee might have used her government travel card for personal use.
The Office of Inspector General review found evidence indicating the employee used her government
travel card to make one (1) ATM withdrawal that was not associated with government travel. The
review also found evidence that the employee's former roommate, who was not a Corporation
employee, may have used the employee's government travel card, without the employee's
permission, to charge gasoline and a motel room. Corporation management was provided the
necessary reports and documents for their use in deciding what action to take against the employee.
The Corporation notified OIG that the employee was verbally counseled.




                                                 12                 FY02 Semiannual Report No. 2
                                                            INVESTIGA TIONS

                           SUMMARY OF INVESTIGATIONS


Opened and Closed

Number of Cases Open at Beginning of Reporting Period                               18

Number of New Cases Opened During this Reporting Period                             19

Number of Cases Closed During this Period With Significant Findings                  6

Number of Cases Closed During this Period With No Significant Findings

Total Cases Closed this Reporting Period

Number of Cases Open at End of Reporting Period                                      17

Referred

Number of Cases Referred for Prosecution During this Reporting Period                 2

Number of Cases Accepted for Prosecution During this Reporting Period                 1

Number of Cases Declined for Prosecution During this Reporting Period
                                                                                I     O

Number of Cases Pending Prosecutorial Review                                          1




                                             13                 FY02 Semiannual Report No. 2
                REVIEW OF LEGISLATION AND
                      REGULATIONS

Section 4(a)(2) of the Inspector General Act requires OIG to review and make recommendations
about existing or proposed legislation and regulations relating to the Corporation's programs and
operations. The recommendations are to address the impact of legislation and regulations on the
economy and efficiency of the administration of Corporation programs and operations. The Office of
Inspector General is also to make recommendations concerning the impact of legislation and
regulations on the prevention and detection of fraud, waste and abuse in Corporation programs and
operations.

Status of Efforts to Develop an Automated Grants Management System
In providing the Corporation's funding for the past two (2) fiscal years as part of the Departments of
Veterans Affairs and Housing and Urban Development, and Independent Agencies Appropriations
Acts (Public Law 106-377 and Public Law 107-73)' Congress specified that not less than $2 million
dollars in each fiscal year should be used for the acquisition of a cost accounting system,
establishment of a grants management system, and creation of a central archives. The Corporation has
implemented a new cost accounting system, and instituted policies and plans for creation of a central
archive. In April 2003, the Corporation expects to complete systems development and testing of an
automated grants management system capable of providing comprehensive financial information for
all of its grants and cooperative agreements.

Regulations
The Office of Inspector General reviewed and concurred with revisions the Corporation made to
certain portions of AmeriCorps grant regulations contained in 45 C.F.R. Chapter XXV. The revised
rule became final on August 8, 2002. Among the more significant changes are that "religious
institutions" are explicitly identified as eligible grant recipients; "public safety" is added as an
additional grant purpose; AmeriCorps participants may now perform "clerical and research" activities
under a grant if supporting a "direct benefit" to the community; and the AmeriCorps education award
may now be used to pay for costs associated with continuing education and correspondence courses,
expenses related to a student's disabilities, and costs associated with work performed by a student in a
cooperative education program. In addition, the regulatory changes clarified eligibility and
documentation requirements to demonstrate that an AmeriCorps member graduated from high school
or an equivalent program, allowing the individual to self-certify the member's educational level under
penalty of law. The changes also resolved grantee questions concerning proof of United States
citizenship by clarifying that Form 1-9 from the Immigration and Naturalization Service is not
acceptable proof that an Ameri~orpsmember is a United States citizen. These changes will facilitate
determinations during audits of AmeriCorps programs concerning whether members meet basic
eligibility requirements.




                                                   14                  FY02 Semiannual Report No. 2
                                          TABLES

     TABLE I     - INSPECTOR GENERAL REPORTS WITH QUESTIONED
                                              COSTS

                                                                      Federal Costs

                                                       Number   Questioned        Unsupported
                                                                     (Dollars in thousands)

      Where no management decision had been made         10      $21,088              $ 13,471
      by the commencement of the reporting period

      Which were issued during the reporting period

      Subtotals (1 plus 2)

      Where a management decision was made during
      the reporting period:

      (i) dollar value of disallowed costs

      (ii) dollar value of costs not disallowed

      Where no management decision had been made
      by the end of the reporting period (3 minus 4)


6.    Reports with questioned costs for which no
      management decision was made within six (6)
      months of issuance




                                                  15             FY02 Semiannual Report No. 2
         TABLE 11 - INSPECTOR GENERAL REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                     Number             Dollar Value
                                                                                      (Dollars in thousands)

     Where no management decision had been made by the                    1
     commencement of the reporting period

     Which were issued during the reporting period                        1*                 $1,545

     Where a management decision was made during the                     0
     reporting period

     (i)     dollar value of recommendations that were
             agreed to by management:

             based on proposed management action

             based on proposed legislative action

     (ii)     dollar value of recommendations that were not
              agreed by management

     Where no management decision has been made by the
     end of the reporting period

     Reports for which no management decision was made                    1
     within six months of issuance

*OIG Report 02-17, Audit of CNCS Grants Awarded to New Jersey Commission on National and Community
Service, page 55, reported an instance where excess draw downs by the grantee could have been used on other
worthwhile Corporation projects.




                                                     16                   FY02 Semiannual Report No. 2
    TABLE 111         - SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT
                                                    DECISIONS

                                                                    Federal              -
                                                                                     Management           Status as of
Report                                                              Dollars           Decision           September 30,
Number                             Title                           Questioned          Due*                  2002
            Audit of Corporationfor National Service                                                    Management has
            Contract No. 95- 743-1009 with Biospherics,                                                 not resolved the
            Inc.                                                                                        questioned costs.

            Audit of Corporationfor National and                                                        Management has
            Community Service Contract No. 95-001                                                       not resolved the
            with TvT Associates, Inc.                                                                   questioned costs.

            Audit of the Corporationfor National and                                                    Management has
            Community Service Contract No. 95- 743-                                                     not resolved the
            1005 with Outsourced Administration                                                         questioned costs.
            Systems, Inc.
            Audit of Corporationfor National and                                                        Management has
            Community Service Contract No. CNCS 94-                                                     not resolved the
            002 with Encore Management Corporation                                                      questioned costs.

            Incurred Cost Audit of Grants Awarded to                                                       A Proposed
            the Oregon Community Service Commission                                                       Management
                                                                                                         Decision has not
                                                                                                         been provided to
                                                                                                               OIG

            Audit of Corporationfor National and                                                           A Proposed
            Community Service Grant Number                                                                Management
            97LHEDCOOI to American Association of                                                        Decision has not
            Community Colleges                                                                           been provided to
                                                                                                               OIG

            Audit of Corporationfor National and                                                           A Proposed
            Community Service Grants Awarded to                                                           Management
            North Carolina Commission on                                                                 Decision has not
            Volunteerism and Community Service                                                           been provided to
                                                                                                               OIG

            Incurred Cost Audit of Grants Awarded to                                                       A Proposed
            the Missouri Community Sewice                                                                 Management
            commission                                                                                   Decision has not
                                                                                                         been provided to
                                                                                                               OIG
             Total

*Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final management decision must be made
within six (6) months of the issuance of the final report and corrective actions completed within one (1) year.




                                                         17                     FY02 Semiannual Report No. 2
     TABLE IV         - REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                       REPORTS WITHOUT FINAL ACTION
                                                                                              Final
 Report                                                                         Date          Action
 Number                                   Title                                Issued         Due*
              Audit of Corporationfor National Service Contract No.
              95- 743-1009 with Biospherics, Inc.

              Audit of Corporationfor National and Community
              Service Contract No. 95-001 with TvT Associates, Inc.

              Audit of Corporationfor National and Community
              Service Contract No. 95- 743-1005 with Outsourced
              Administrative Systems, Inc.

              Audit of Corporationfor National and Community
              Service Contract No. 94-002 with Encore Management
              Corporation

              Pre-Audit Survey Report of the Alaska State Community
              Service Commission

              Incurred Cost Audit of Grants Awarded to the Oregon
              Community Service Commission

              Audit of Corporation of National and Community Service
              Grants to the Delaware Community Service Commission

              Pre-Audit Survey of the Colorado Governor S
              Commission on Community Service

              Audit of Controls Over the Corporationfor National and
              Community Service's Key Performance Indicators and
              Accomplishments Statistics

              Report on the Review of the Corporationfor National
              and Community Service National Direct Grant
              Application Review Process
* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final management
decision must be made within six (6) months of the issuance of the final report and corrective actions
completed within one (1) year.




                                                    18                   FY02 Semiannual Report No. 2
             FISCAL YEAR 2002 PERFORMANCE
                     INFORMATION
                                   MISSION STATEMENT

The Corporation's Office of Inspector General is authorized by the Inspector General Act of 1978, as
amended, to -

        Conduct independent and objective audits and investigations.

        Promote organizational economy, efficiency, and effectiveness.

        Prevent and detect fraud, waste, and abuse.

        Review and make recommendations regarding existing and proposed legislation and regulations
        relating to Corporation programs and operations.

        Keep the Chief Executive Officer, the Corporation's Board of Directors, and the Congress fully
        and currently informed of problems in agency programs and operations.

                                      STRATEGIC GOALS

The Office of Inspector General has established the following goals for its operations -

        Identify opportunities for increased economy and efficiency in agency operations; assist
        management by identifying, recommending, and developing appropriate management reforms.

        Protect the integrity of the Corporation's programs, operations, and financial management by
        identifying and mitigating existing risks or emerging vulnerabilities that may result fiom changes
        in the Corporation's operations, from changing legal and administrative requirements, or from
        other changes in the environment in which the Corporation operates.

        Carry out the intent of the Government Performance and Results Act (GPRA) by (a) providing
        the Corporation with objective assessments of the integnty of the systems that it uses to compile
        performance information and its reliability and (b) changing the focus of OIG audits and other
        services to focus more on management performance and programmatic outcomes.

        Improve the quality and delivery of OIG work products.




                                                   19                  FY02 Semiannual Report No. 2
                           FY02 PERFORMANCE INFORMATION



            QUANTITA TIVE A UDIT PERFORMANCE MEASURES

                                                                                    FISCAL YEAR

                                                                            2001           2002   2002
                                                                           Actual          Goal   Actual

Number of Reports Issued                                                     28

Number of Reports Issued                                                      11
Linked to Improving Corporation Management (OIG Strategic
Goal 1 )

Number of Recommendations Linked to Goal :I(')                               121

Number of Reports Issued                                                      28
Linked to protecting the Integrity of Programs, Operations, and
Financial Management (OIG Strategic Goal 2)

Number of Recommendations Linked to Goal 2
                                            . ..to Corporation               1,43
                                            .. .to Grantees                  147
                                            ...to Contractors                  0

Number of Reports Issued Linked to Carrying {OutThe Intent of                  2
GPRA (OIG Strategic Goal 3)

Number of Recommendations Linked to Goal :3                                   20

Total Number of Audit Recommendations                                        290

Percent of Recommendations Accepted by Co~poration                          82%

('I The number of recommendations that will be included in a report cannot be predicted.




                                                     20                    FY02 Semiannual Report No. 2
                          FY02 PERFORMANCE INFORMA TION


                          AUDIT PERFORMANCE STATISTICS

                                                               Fiscal Year


Number of Audit Reports                                38              28            28


Number of Testimonies                                    2              3              0


Number of Reports Requested by Congre~sion~al
Staff


Questioned Costs (dollars in thousands)             $8,558         $2,984       $23,369


Recommendations that Funds be Put to Better Use         $0            $56        $1,607
(dollars in thousands)

Costs Per Audit Hour
       OIG Staff
       Contracted Services


Timeliness                                        184 days       187 days      2 15 days




                                             21              FY02 Semiannual Report No. 2
                           FY02 PERFORMANCE INFORMATION

             INVESTIGA TIONS PERFORMANCE INFORMA TION

The basic mission of the OIG investigative section is to lawfully determine as many of the facts as
possible surrounding a given incident. The inci'dent under review may include allegations of criminal
activity, allegations of non-criminal activity, cm allegations that include both criminal activity and
non-criminal activity. The basic mission of the investigative element remains unchanged regardless
of the nature of the incident: Determine as many facts as possible surrounding a given event. How an
allegation is developed, i.e., reactively or pro-actively, has no impact on the basic mission.

What occurs after the initial receipt of a complaint, allegation, or information that results in the
development of a complaint or allegation, varies, depending primarily upon whether the matter is
criminal or non-criminal, and if criminal, whether or not it is accepted by the Department of Justice
for prosecution.

All matters involving evidence of Federal criminal violations are referred to the Department of Justice
for a prosecutory decision. This does not mean that all allegations of Federal criminal violations are
referred; only those with evidence of a Federal criminal violation are referred, with some exceptions.
For example, all allegations of significant fraud and all allegations against certain senior government
officials are referred to the Department of Justice without regard to the amount of evidence available
at the time the allegations are received. Many of the criminal matters investigated by OIG involving
Corporation programs and operations are declined for prosecution by the Department of Justice
because of the low dollar amounts involved. The Office of Inspector General has had no declinations
of a criminal matter because of our inability to sufficiently develop evidence of criminal misconduct.
Some of the referrals that are declined by the Criminal Division of the Department of Justice are
accepted by the Civil Division for civil enforcement.

Those matters that are determined to be non-criminal and those matters that have been declined for
prosecution or civil enforcement by the Department of Justice (or State prosecutors) are often referred
to Corporation management for administrative action. This administrative action might involve
suspension or even removal of an employee. Administrative action could also involve a redesign or
refinement of a process or system that was identified by our efforts as one that could be improved.
When OIG refers such matters to management, we usually request that management provide a brief
narrative of what, if any, administrative action was taken as a result of the referral to them.

One other area that deserves mention involves those matters (criminal and non-criminal) that OIG
finds did not occur, did not occur as alleged, cIr were not within our purview. While some of these
matters are as important as a founded criminal investigation (and as such are identified and
documented separately), the majority are minor and are filed without opening a separate investigative
action. Regardless of the severity, each matter requires some degree of preliminary inquiry. The
following table presents statistics on OIG's investigative workload.




                                                   22                  FY02 Semiannual Report No. 2
                                   FY02 PERFORMANCE INFORMATION


                           INVESTIGATIONS PERFORMANCE STATISTICS

                                                                      Fiscal Year

                                               1998            1999          2000          200 1          2002

    Investigative Actions Opened                 41              46            51            95'             40


    Investigative Actions Resolved
    and Closed


    Average Monthly Caseload


    Investigative Matters Resolved
    Without Opening a Separate
    Investigative Action


    Referrals for Prosecution


    Investigative ~ e c o v e r i e s ~     $9,450        $142,634      $308,939       $55,961      $1,206,057


    Administrative or Management                   6             10              4             8             25
    Action Taken




1
  Forty-five (45) of the ninety-five (95) investigatit,e actions opened during fiscal year 2001 were opened as a
direct result of a proactive OIG review of Corporation employees' use of the government travel charge card.
The forty-five (45) actions were opened to document the investigation of suspected employee abuse of the
government travel cards, namely using the cards for personal benefit, in violation of Corporation policy, Federal
regulations, and the Standard of Conduct.
  Includes money received by the Corporation or other government agencies as a result of OIG investigations,
including joint investigations with another OIG, Federal or State investigative element.


                                                       23                     FY02 Semiannual Report No. 2
                            FY02 PERFORMANCE INFORMATION


         SUMMARY OF OIG OBLIGATIONS AND EXPENDITURES

                                    Fiscal Years 2002 and 2001 (')



4udits
      Corporation Financial Management

      Grants

      Procurement

      Information Technology

      Other Audits

      Audit Administration (4)

Investigations   (')


Administration

Total

  Fiscal years 2001 and 2002 appropriations were for two-year periods, October 1, 2000 to September 30,
(')
2002, and October 1, 2001 to September 2002, respectively.

(" At the end of FY 2001, hnds in the amount of $858,000 were carried over into FY 2002. FY 2002 total
includes obligations and expenditures in the amount of $699,249. The FY 2002 year-end unobligated balance
to be camed over into FY 2003 is $1,302,049.

  The FY 2000 supplemental appropriation of $1 rnillion received on July 13, 2000, established under section
(3)
178 of the National and Community Service Act of 1990, as amended, was carried over into FY 2001 in
support of OIG audits of State Commissions. The grants' total includes obligations in the amount of $966,392
for State Commission audits under the supplemental appropriation.

  The increase in FY 2002 audit costs is primarily due to the luring of three (3) additional audit staff and the
'4'
increase in the number of audits conducted, therefore, increasing the travel costs.

   The decrease in FY 2002 investigations costs is due to the full funding of investigative blanket travel orders
from the FY 2001 appropriation (two-year obligatica authority) for travel activity that occurred in FY 2002.




                                                       24                    FY02 Semiannual Report No. 2
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                 OFFICE OF INSPlECTOR GENERAL




    *
                    HOTLINE
                                Corporation Employees!
                      Concerned Citizens!        Grantee Employees!

         AmeriCorps Members!                           Senior Corps Volunteers!




                  Report suspected fraud, waste or abuse.
                                r All information is confidential.

                                r You may remain anonymous.




        Contact us by email:              Or write:
        hotline@cncsoig.gov                                           www.cncsig.gov

I                                  OIG A ~ L I N E
                    Corporation for National and Community Service
                        1201 New York Avenue NW., Suite 830
                                Washington, D.C. 20525
